•* *

No.

In tje
Supreme Court of tfje ®mtet> Stated
KEITH HOGLUND®
Petitioner,
v

RON NEAL, d/b/a Superintendent
Respondent(s)
PROOF OF SERVICE
^ ?I, KEITH HOGLUND® do declare pursuant to 28 U.S.C. § 1746(1), that on this
^7'T day of _Jp Tu __________ 2020, as required by Supreme Court Rule 29, I
have served the enolp4 ed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
I hereby verify under penalty of perjury that a copy of the above and foregoing
WRIT OF CERTIORARI, has been served upon:

OFFICE OF THE ATTORNEY GENERAL OF INDIANA
Indiana Government Center South, 5th Floor
402 West Washington Street
Indianapolis, IN 46204
by personally handing the document to the appropriate prison official for placement
into the institution’s internal mailing system designed for legal mail
By:
For all communiques elsewhere
“Without prejudice”
Keith Hoglund, SPC; Agent
in behalf of the KEITH HOGLUND TRUST®
c/o ONE Park Row
City of Michigan City, Indiana state, united States of America
DMM Reg. sec. 122.32; Public law 91-375, sec. 403
42

